 



                                




                                              U.S. DOI OIG 
    Report No. WR-EV-OSS-0012-2009 [Type the company name] 
                                             December 2009
                                             [Pick the date] 
                                                                                   DEC 23 2009


Memorandum

To:           Rhea Suh
              Assistant Secretary – Policy, Management and Budget

From:         Mary L. Kendall
              Acting Inspector General

Subject:      Evaluation Report on the Department of the Interior’s Appraisal Operations
              (Report No. WR-EV-OSS-0012-2009)

       This memorandum presents the results of our evaluation of appraisal services provided by
the National Business Center’s (NBC) Appraisal Services Directorate (ASD). We began this
evaluation in May 2009 to assess the efficiency and quality of appraisal operations.

       We found that appraisal operations are impeded by a combination of factors, several of
which are not within ASD’s ability to control. Specifically, we found that ASD’s ability to
become a strong and independent appraisal organization as envisioned by the Secretary has not
been fully realized due to a collective lack of support from NBC, the bureaus, and the
Department of the Interior (Department). This lack of support is compounded by the fact that
ASD has essentially become dependent upon others to address policy and enforcement issues as
the agency has been without consistently strong leadership for the past 3 years.

       In its October 2009 House Report 111–316, Congress directed the Department to revisit
the appraisal services consolidation so as to immediately address concerns over delays in
obtaining adequate appraisals for acquisition of Federal lands.

       Given the findings of our review, as well as those concerns voiced by Congress, we
believe the Department’s appraisers must remain organizationally independent of the agency
personnel responsible for acquiring or exchanging land for mission-related purposes. This report
contains three recommendations that address those issues presently obstructing ASD’s ability to
succeed.

       The legislation, as amended, creating the Office of Inspector General (OIG) requires that
we report to Congress semiannually on all audit reports issued. We appreciate the cooperation
shown by the Department bureaus and offices during our review. We ask that you inform us of
the Department’s planned course of action on the recommendations within 30 days.

         
       If you have any questions regarding this evaluation, please do not hesitate to call me at
(202) 208-5745.

cc:    Deputy Secretary
       Associate Director, Finance Policy & Operations
       Deputy Assistant Secretary for Budget and Business Management
       Director, National Business Center 




                                                2
                                           SYNOPSIS

The Appraisal Services Directorate (ASD) is not the strong and independent appraisal
organization envisioned by the Secretary at its inception in 2003. From the outset, both external
and internal obstacles have impeded ASD’s ability to fulfill its mission and provide the
Department with timely, independent appraisals and valuation services.

We began this evaluation in May 2009, after discussing concerns regarding ASD with the Acting
Assistant Secretary for Policy, Management and Budget. Our evaluation found that ASD has not
received the external support necessary within the Department of Interior (Department) to
assume full control over the appraisal function. The National Business Center (NBC), the
bureaus, and the Department do not collectively support ASD. Specifically, NBC has failed to
provide timely services to ASD and has little incentive to do so. ASD’s bureau clients, the
Bureau of Land Management, U.S. Fish and Wildlife Service, National Park Service, and Bureau
of Reclamation, remain unconvinced of the need for a consolidated organization and have
repeatedly acted to regain control of the appraisal function, thus undermining ASD as an
organization. Further, the Department has not actively intervened to address these issues and
protect ASD’s independence and operational integrity.

In addition to these external obstacles, ASD has been weakened internally by the absence of
strong leadership, a failure caused in large part by its placement within NBC. This is illustrated
by ASD’s complete dependence on the Assistant Secretary – Policy, Management and Budget
(AS–PMB) and the bureaus to address contracting problems. Because of this, ASD is unable to
complete its appraisal function in a timely manner.

In its October 2009 House Report 111–316, Congress directed the Department to revisit the
appraisal services consolidation to immediately address delays in obtaining adequate appraisals
for the acquisition of Federal lands. Based on our findings as well as the concerns recently
voiced by Congress, we believe that the Department’s appraisers must remain organizationally
independent of the realty personnel in the bureaus. We have made recommendations designed to
ensure that ASD has full control of the contracting process, strong and effective leadership, and
an organizational placement that enables ASD to provide timely, independent appraisals and
valuation services.




                                                 3
                                        BACKGROUND

                           The Importance of Land Appraisals
Ensuring Integrity, Accountability, and Transparency

The land appraisal process is a key control for ensuring integrity, accountability, and
transparency in public land acquisitions and land exchanges, with the Federal appraiser fulfilling
a critical advisory service through their ascertainment of market value.

Land Acquisition

At the Department, land appraisals are mostly for unimproved properties located in rural areas,
as the mission of its bureaus largely focuses on the stewardship of public lands, conservation of
wildlife, management of national parks, and protection of natural resources. Appraisals are
performed to support the acquisition of land or easements, exchange of Federal and nonfederal
lands, leases, permits or license, revenue sharing with local governments, and land disposals via
sale. Over the past 4 years, the Department’s appraisers have been responsible for the valuation
of nearly 8 million acres of land with a combined value of almost $10 billion. (See Table.)

                                                         APPRAISED
                                                                          APPRAISERS
                               FY         ACREAGE           VALUE
                                                                            (FTEs)
                                                         (in Billions)
                              2006        3,045,132         $2.86              56

                              2007        1,578,072         $1.58              51
                              2008        1,034,072         $2.31              51

                              2009        2,256,673         $3.06              57
                            TOTAL         7,913,949         $9.81


Ensuring Fair Compensation

In acquiring real property, it is the United States’ policy to impartially protect the interests of all
by ensuring that compensation paid is fair, not only to the individual that owns the property, but
also to the public who pays for it. The Fifth Amendment of the United States Constitution states
that private property will not be taken for public use without just compensation, and the United
States courts have adopted the concept of market value as the measure of just compensation. For
this reason, it is the general policy of the United States that all Federal land acquisitions be based
on market value appraisals.




                                                   4
The Necessity of Appraiser Independence

The quality of an appraiser’s services in ascertaining market value is negated when appraiser
independence is compromised by excessive pressure to meet management and political
objectives. Prior to the Secretary’s 2003 creation of a consolidated Departmental appraisal
organization, appraisers reported to and received performance evaluations from bureau realty
managers responsible for completing land transactions for the Bureau of Land Management
(BLM), U.S. Fish and Wildlife Service (FWS), National Park Service (NPS), and Bureau of
Reclamation (BOR). As a result, bureau appraisers’ responsibility to determine market value
frequently conflicted with, and was compromised by, realty managers’ drive to expedite land
transactions and “make the deal.” This threat to appraiser independence, however, is not unique
to government as both the Appraisal Institute1 and The Appraisal Foundation (Foundation)2 have
highlighted client pressure as perhaps the most visible threat to appraisal integrity.

With over 40 years of observation by the Office of Inspector General (OIG), the Government
Accountability Office (GAO), and other professional organizations, we have seen that the
compromising of appraiser independence was all too common within the Department when
appraisal staff worked directly for the agencies. From as early as our 1968 OIG report,3 and as
recently as a 2002 Foundation report,4 independent reviews of the Department’s realty and
appraisal operations conclude that the placement of appraisal operations within the bureaus
deemphasize the significance of the appraisal product and restrict the function’s independence by
making it subservient to management and realty staffs’ drive to successfully close transactions.
The reports ultimately recommend the creation of a single Departmental appraisal and appraisal
review organization so as to assure appraiser independence and to protect the public interest.

                                              The Creation of ASD
In 2002, the Department created a Land Transaction Working Group (LTWG) to address land
transaction issues at the policy level. With the Foundation’s highly critical report as a stimulus,
the LTWG focused its attention on the Department’s appraisal operations. LTWG concluded that
past efforts to remedy appraisal problems, which typically involved refining or augmenting
program guidance, had proved ineffective. The efforts were ineffective because they did not
address the underlying issues of appraiser independence and inconsistent application of appraisal
standards. The LTWG concluded that significant restructuring was necessary and, like the
previous reviews by the OIG and the Foundation, recommended that the Secretary consolidate
the bureaus’ real property appraisal functions in a new Departmental office.

The former Secretary approved the LTWG’s recommendation and, in November 2003, formally
consolidated the Department’s appraisal operations with the creation of the ASD. Through ASD,
the Department would be provided with a strong appraisal organization with unified lines of
supervision meant to protect appraiser independence from undue influence, enhance the

1
  The Appraisal Institute is a global membership association of professional real estate appraisers who work to advance
professionalism and ethics, global standards, methodologies, and practices through professional development of property
economics worldwide.
2
  The Appraisal Foundation is a nationally recognized organization chartered by the Congress to oversee the implementation of
appraisal standards and assure the professionalism of appraisers.
3
  “Review of Departmental Land Appraisal Activities,” Office of Survey and Review (March 1968).
4
  “Evaluation of the Appraisal Organization of the Department of Interior Bureau of Land Management” (October 2002).
                                                               5
reliability of Department appraisals, and ensure unbiased valuation services that meet Federal
appraisal standards5 and represent a fair value for both the private landowner and Federal
taxpayers. This fundamental reform was meant to change the way the Department conducted
business and to gain the respect of both the public and the dedicated professionals in its appraisal
and realty programs.

At the suggestion of the LTWG, the Secretary placed ASD within the NBC. ASD’s placement
was based in the belief that NBC was well-suited to provide ASD with necessary support
functions including budget, human resources, fiscal services, and contracting. As no party
conducted a complete workload analysis of the Department’s appraisal needs, funding of ASD
was based on partial analysis provided by the bureaus to the AS–PMB, with budgeted allotments
increasing with each fiscal year. While not included in the Department consolidation, ASD has
provided oversight of the Office of Special Trustee’s Office of Appraisal Services since 2007.
ASD is currently organized into seven regional offices that report to a Chief Appraiser located in
Washington, D.C.




5
 The Federal appraisal standards are the “Uniform Appraisal Standards for Federal Land Acquisitions,” published by the
Interagency Land Acquisition Conference, 2000.
                                                              6
                                                      RESULTS

                                                    Introduction
ASD is not a strong and independent appraisal organization as envisioned by the Secretary. Both
external and internal obstacles have impeded ASD’s ability to fulfill its mission and provide the
Department with timely, independent appraisals and valuation services.

ASD’s external obstacles take form in its inability to assume full control over the appraisal
function. The inability to assume control is due to an absence of support from NBC, the bureaus,
and the Department. Internally, the nonexistence of leadership, caused by its placement within
NBC, has weakened ASD’s ability to timely complete the appraisal function.

                                               External Obstacles
ASD does not have full control over and responsibility for the appraisal process. This is due to its
absence of support from NBC, the bureaus, and the Department. Specifically, NBC has little
incentive to provide timely support services to ASD. In addition, bureau clients still refute the
need for a consolidated organization and take actions to recover control of the appraisal function.
Further, as the lead for all agencies involved, the Department’s Office of Policy, Management
and Budget has not actively intervened to address these impediments.

NBC Does Not Provide Timely Support and Services

NBC’s contracting process is a constant source of frustration to ASD and the bureaus. The
advertisement and award of contracts are delayed for a number of reasons that include difficulty
coordinating funding documents and statements of work and the time required to add or refund
monies due to changes in appraisal costs or re-contracting in the case of unsuccessful bids. As
neither ASD nor the bureaus have control over the function and no authority to hold NBC’s
acquisition offices accountable for delivery times, no workable solution has been found.

In addition, GAO noted in a 2006 report6 that NBC staff had little incentive to provide services
in a timely manner because ASD has no choice but to use its services. The report also notes that
this situation would not change under the then current plan to relocate the function to another
NBC contracting office. Despite this warning, the shift occurred and contracting remained a
frustration for 3 more years until, in June 2009, the AS–PMB allowed the return of the function
to the bureaus.

The AS–PMB’s decision to place ASD within NBC was based on the reasoning that NBC was
already the provider of Department-wide business and administrative services and was,
therefore, ideally suited to provide the appraisers with administrative and infrastructure support,
including efficient contract monitoring and management.


6
 “Interior’s Land Appraisal Services: Actions Needed to Improve Compliance with Appraisal Standards, Increase Efficiency,
and Broaden Oversight,” United States Government Accountability Office (Report GAO-06-1050, September 2006).
                                                             7
NBC advertises that the partnership and business ventures between NBC and its clients are the
basis for mutually beneficial business results and that its efficiency and expertise in providing
quality administrative services allow its clients to concentrate on their core missions. Specific to
contracting, NBC states that the specialized skills of its personnel has resulted in standardized
practices, continuity of expertise, and increased productivity of its resources. With regard to
ASD, however, NBC proved to be either unable or unwilling to provide timely contract support.

The Bureaus Act to Regain Control of the Appraisal Process

With the bureaus’ regaining of the contracting function, the AS–PMB issued guidance in June
2009 that identifies roles and responsibilities of ASD and the bureaus designed to safeguard and
ensure the integrity and independence of the appraisal product. Such safeguards are a prudent
business practice and also serve to protect ASD from those bureaus that wish to see the appraisal
function returned to them. For example, both NPS and FWS expressed such a desire during our
discussion with them.

Despite the AS–PMB’s June 2009 guidance, however, the bureaus have subsequently violated a
number of those outlined safeguards. One such requirement is that any bureau electing to use its
own contracting office would need to implement a Memorandum of Understanding (MOU) with
NBC. The guidance included a standardized MOU that is to be used for this purpose.

While all bureaus have currently opted to use their own contracting offices to procure appraisals,
they have done so without implementing the required formal agreements. Furthermore, some
bureaus have seized upon the return of the contracting function as an opportunity to try to regain
control over the appraisal process. For example, we noted that NPS violated at least two
elements of the AS–PMB’s guidance by seeking contractors outside of an ASD-supplied bidder
list and, in at least one case, awarding a contract to an appraiser that ASD had specifically
identified as “not recommended” because their previous work products were “not acceptable.”

No Departmental Intervention

Despite its overall knowledge that the appraisal contracting struggle exists, the Department has
not acted while ASD flounders in NBC and has not responded as bureaus circumvent rules
designed to maintain the accountability and credibility of the appraisal process. Since ASD’s
inception in 2003, the contracting function progressed unsuccessfully through three separate
NBC contracting offices before the AS–PMB returned contracting to the bureaus in April 2009.
Even though the contracting process for appraisal services was addressed with guidelines in June
2009, the AS-PMB has neither enforced nor ensured the bureaus adherence to those guidelines.

The contract function is a vital piece of the appraisal delivery process as nearly 80 percent of the
Department’s appraisal and review workload involves the contracting of work to nonfederal
appraisers. All of these contract appraisals must meet rigorous Federal appraisal standards
required by ASD which, as the GAO noted in its 2006 report, makes it that much more difficult
to find willing and qualified contractors. GAO also reported that contracting for appraisal
services through NBC had not worked in the past and it was uncertain if it would work in the
future.


                                                 8
Based on our experience with the Department’s implementation of the appraisal function since
2003, we believe that frustrations over delays and the laying of blame will continue to occur so
long as ASD does not have complete control over and responsibility for the contracting function.

                                      Internal Obstacles
ASD is unable to meet the goals and expectations originally envisioned and presently expected
because it has essentially become a dependent office. Its placement within NBC has caused an
absence of consistently strong leadership and made ASD overly reliant upon AS–PMB and the
bureaus. Without the leadership necessary to address contracting frustrations and combat efforts
by the bureaus to regain control over the appraisal function, ASD cannot be the independent and
strong appraisal service necessary to fulfill its proposed function.

Absence of Leadership

With the initial momentum of ASD’s creation in 2003, the presence of a technically competent
Chief Appraiser served to strengthen the new appraisal organization through the development
and issuance of new policies and procedures. Such improvements included the issuance of a new
appraisal policy manual and the creation of a web-based tracking system, the Appraisal Request
and Review Tracking System, to track requests made by each bureau and to maintain
information on ASD workload and accomplishments.

Since the first Chief Appraiser vacated the position in 2006, however, the position has not been
filled by a fully qualified Senior Executive for almost 3 full years. In the interim, ASD has been
led by a series of well-intentioned acting Chiefs and, for 1 year, by a Chief Appraiser who was
not technically qualified to hold the position. We found that NBC selected the unqualified Chief
Appraiser as a result of its focus on customer service and business experience, with a de-
emphasis on technical appraisal skills and qualifications. NBC hired this person despite other
well-qualified appraisers having applied for the position.

Unfortunately, this lack of consistent, competent, and empowered leadership remains to date as
the Department decided not to proceed with the selection of a new ASD Chief Appraiser in June
2009. Instead, in October 2009, the Chief Appraiser’s position was once again placed in the
hands of yet another temporary caretaker. Without the presence of a strong Chief Appraiser as
lead, ASD cannot become a strong appraisal organization and cannot work to enforce policy
directives, such as those outlined by the AS–PMB regarding contracting safeguards.

With the benefit of hindsight, we believe that the Secretary’s placement of ASD within NBC is a
hindrance to the appraisal organization. While this placement initially appeared to be of mutual
benefit to both offices, it has instead served to weaken ASD’s ability to become a successful
appraisal organization as it has contributed to the untimely delivery of appraisal products and
prompted the AS–PMB to eventually return the contracting function to the bureaus.




                                                 9
                    CONCLUSION AND RECOMMENDATIONS

Providing professional appraisal services will always be a balancing act for ASD. On the one
hand, ASD needs to function effectively and efficiently and deliver appraised value estimates
and other products to the agencies in a timely manner. On the other hand, ASD must adhere to a
set of professional Federal appraisal standards and ensure that credible and unbiased appraisals
are produced for agency use.

Adhering to professional standards and ensuring that lands to be acquired or exchanged are
properly valued unavoidably adds time and creates hurdles that frustrate agency managers and
private parties. ASD’s external and internal obstacles are exacerbating the delays that are
inherent in the process.

Given our findings and Congress’s concerns voiced in its October 2009 House Report 111–316,
we believe that ASD must be organizationally independent of the agency realty personnel and
must have full control of the contracting process. Because of the need for a strong and
independent appraisal service, we recommend that the AS–PMB take the following actions:

1. Delegate responsibility to, and provide the necessary resources for, ASD’s complete control
   over the contracting function.

2. Ensure that a strong and competent Chief Appraiser is selected to lead further change within
   ASD and to provide a single point of contact, offer sound judgment and have final decision
   authority on appraisal matters; and,

3. Revisit the organizational placement of the Department’s appraisal operations and consider
   making ASD an independent office within the Office of Policy, Management and Budget in
   order to reinforce ASD’s ability to successfully and independently perform appraisal-related
   activities.




                                               10
               APPENDIX 1: Objective, Scope, and Methodology
The objective of our evaluation was to assess the efficiency and quality of appraisal operations of
ASD. In conducting our review, we found that appraisal operations are impeded by a
combination of factors, several of which are not within ASD’s ability to control. Thus, our
objective became focused on policy and programmatic issues at the Departmental level believed
to be the underlying impediments to ASD’s providing efficient and quality services.

We conducted our review from May 2009 through July 2009, which included the review of ASD
policy and practices for identifying appraisal process characteristics such as timeliness and
appraiser professionalism. We also interviewed ASD management, appraisers, and support staff,
as well as realty staff from the bureau clients, to understand both the successes and frustrations
that exist within the appraisal delivery process. To gain additional insight, we spoke with
Departmental officials within the Office of the Secretary, the Chief Appraiser for the Department
of Agriculture’s Forest Service, the Chief Appraiser for the Department of Justice, and a
representative of the Trust for Public Land, one of the primary nongovernment organizations
with which the bureaus conduct business. (See Appendix 3 for sites visited or contacted.)

The scope of our review covered fiscal years 2006 through 2009. We conducted our evaluation
in accordance with the “Quality Standards for Inspections” as put forth by the President’s
Council on Integrity and Efficiency. Accordingly, we included such tests of records and other
procedures that were considered necessary under the circumstances. To accomplish our
objective, we conducted the following activities:

¾ Reviewed applicable laws, regulations, and Department and bureau policies including those
  practices used with implementation. Such policy and practice review was specific to the
  Department, NBC, ASD, and bureaus as they relate to the contracting of appraisal services
  and the hiring of the NBC–ASD Chief Appraiser.

¾ Determined the appraisal universe within ASD purview and reviewed a small, judgmental
  sample of ASD appraisal records that were identified by the bureaus and ASD as reflecting
  appraisal processes delays and concerns.

¾ Interviewed Department (i.e., Office of Policy, Management and Budget, NBC, ASD),
  bureau, U.S. Forest Service, U.S. Department of Justice, and non-government organization
  appraisal and realty specialists.

¾ Reviewed NBC’s Strategic Plan and other related documents. NBC’s strategic direction for
  ASD’s line of business is to (1) establish consistent Appraisal Departmental policies and
  procedures; (2) refine standard operating procedures and business processes; (3) establish
  compliance inspection and continuous improvement program; and, (4) expand appraisal
  service offerings in minerals, timber, and water evaluations.

¾ Reviewed Congressional Conference Report 111–316, dated October 2009, which directed
  the Department of the Interior to revisit the Department-wide appraisal services consolidation
  and immediately address the undue delays in obtaining appraisals for Federal land acquisition
  projects.


                                                11
                        APPENDIX 2: Prior Audit Coverage

GAO has conducted two reports subsequent to the Department’s consolidation of its appraisal
function. Its September 2006 report, “Interior’s Land Appraisal Services: Actions Needed to
Improve Compliance with Appraisal Standards, Increase Efficiency, and Broaden Oversight”
(GAO–06–1050), GAO recommended that ASD establish and implement internal controls to
include standardized review procedures, effective accountability framework, and a compliance
program. It was also recommended that appraisals be assigned to appraisers with appropriate
experience and skill. In addition, GAO issued a June 2009 report, “Federal Land Management:
BLM and the Forest Service Have Improved Oversight of the Land Exchange Process, but
Additional Actions Are Needed” (GAO–09–611), in which GAO touched on the Department’s
progress in implementing its 2006 recommendations.

Prior to the consolidation of the Department’s appraisal function, the OIG and GAO reported
extensively on deficiencies in appraisals used by BLM, FWS, and NPS to buy and exchange
land. A few examples are:

¾ May 1956, “Report of the Committee on Land Appraisal Practices in the Department of the
  Interior” (Issued by the Department of the Interior). The report contained
  27 recommendations with heavy emphasis on organization, staffing, training, development of
  standards, and direction and supervision from the Secretariat level.

¾ March 1968, “Review of Departmental Land Appraisal Activities” (Issued by OIG’s
  predecessor, DOI’s Office of Survey and Review). The report recommended “creation of a
  single Department appraisal organization” because “the organizational placement of the
  appraisal function in most bureaus tends to restrict independence and to deemphasize the
  significance of the appraisal as an end product.”

¾ June 1991, “Land Exchange Activities, BLM” (OIG Report No. 91–I–968). We reported that
  the government did not receive fair value under the exchange program because appraisals
  used by BLM did not comply with Federal appraisal standards, or because approved land
  value information had been changed by unauthorized personnel.

¾ May 1992, “Land Acquisitions Conducted with the Assistance of Nonprofit Organizations,
  Department of the Interior” (OIG Report No. 92–I–833). We reported that Departmental
  agencies established land values based on appraisals that did not follow appraisal and
  property valuation standards. Non-profit organizations unduly profited from some land
  acquisition transactions because appraisals were not timely, independent, or adequately
  supported.

¾ July 1996, “Nevada Land Exchange Activities, BLM” (OIG Report No. 96–I–1025). We
  found that BLM’s Nevada State Office did not ensure that fair and equal value was received
  in completing the exchanges we reviewed.




                                              12
¾ March 1998, “The Del Webb Land Exchange in Nevada, BLM” (OIG Report No. 98–I–
  363). We reported that BLM’s Washington Office did not conform to established standards,
  procedures and controls for appraisals and land valuations and ignored the objections of its
  Nevada State Chief Appraiser on this large and politically sensitive land exchange. Had
  external pressure not caused BLM to obtain a second appraisal, the government would have
  lost $9.1 million on the exchange.

¾ September 1998, “Follow-up of Nevada Land Exchange Activities, BLM” (OIG Report No.
  98–I–689). We reported that the Bureau had been unsuccessful in its efforts to establish
  controls to ensure that land was properly valued and that, as a result, $18.2 million was lost
  on three large land exchanges. We therefore recommended that BLM identify its land
  exchange program as a material weakness in the Department’s accountability report and that
  BLM place a moratorium on land exchanges in Nevada pending establishment of an
  independent land exchange review team.

¾ June 2000, “BLM and the Forest Service: Land Exchanges Need to Reflect Appropriate
  Value and Serve the Public Interest” (GAO Report No. RCED–00–73). GAO corroborated
  many of our earlier findings and went so far as to suggest that Congress should consider
  directing BLM to discontinue the land exchange program because of the inherent problems
  associated with appraising lands for exchange.

¾ July 2001, “Land Exchanges and Acquisitions, Bureau of Land Management Utah State
  Office” (OIG Report No. 2001–I–413). We reported that the appraisal process was not
  objective and appraisal reviews did not meet standards. Recommendations were made for a
  peer review by The Appraisal Foundation (Foundation) and the implementation of the
  Foundation’s subsequent recommendations.

¾ October 2002, “Evaluation of the Appraisal Organization of the Department of Interior
  Bureau of Land Management” (The Appraisal Foundation, Contract No. NAC020051). The
  Foundation considered the July 2001 DOI, OIG report and responded to the request for
  evaluation. They recommended the establishment of a separate agency for the development
  and review of appraisals as a centralized agency. They also recommended that a compliance
  officer be established.




                                               13
                         APPENDIX 3: Sites Visited or Contacted



                      Office                                            Location 
            FWS Headquarters                                            Arlington, VA
       NBC–ASD Southeast Region                                          Atlanta, GA
           NPS Southeast Region                                          Atlanta, GA
          FWS Southeast Region                                           Atlanta, GA
   NPS Intermountain Regional Office                                     Denver, CO
  NBC Acquisition Services Directorate                                 Lakewood, CO
 FWS Mountain­Prairie Regional Office                                  Lakewood, CO
    BOR Denver Federal Center Office                                   Lakewood, CO
        BLM Colorado State Office*                                     Lakewood, CO
           Trust for Public Land                                      San Francisco, CA
         NBC–ASD Headquarters                                         Washington, D.C.
            BLM Headquarters                                          Washington, D.C.
            NPS Headquarters                                          Washington, D.C.
        U.S. Department of Justice                                    Washington, D.C.
            U.S. Forest Service*                                      Washington, D.C.
Office of Policy, Management and Budget                               Washington, D.C.
     *Denotes sites that were contacted but not physically visited.




                                                            14
